No.

IN THE
SUPREME COURT OF THE UNITED STATES

Co

May
WILBERT ROMON BANKS

— PETITION

(Your Name)
vs.

LORIE DAVIS,DIRECTOR,TDCJ-CID

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. DISTRICT.COURT,NORTHERN DISTRICT OF TEXAS,AMARILLO
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

WILBERT ROMON BANKS

(Your Name)
3899 STATE HWY. 98

(Address)
NEW BOSTON,TX

75570

(City, State, Zip Code)

(Phone Number)

i

QUESTION(S) PRESENTED
GROUND ONE

WAS BANKS CLAIM OF INEFFECTIVE ASSISTANCE OF COUNSEL, RAISED FOR
THE FIRST TIME DURING HIS FEDERAL HABEAS CORPUS PETITION, A SUB­
STANTIAL CLAIM WITHIN THE MEANING OF THE SUPREME COURT'S DECISIONS
IN TREVINO V. THALER,569 US. 413 (2013) AND MARTINEZ V. RYAN,566
U.S. 1 (2012)?

GROUND TWO
WAS BANKS DENIED EFFECTIVE ASSISTANCE OF COUNSEL WHEN HIS TRIAL
COUNSEL, WITHOUT FIRST SEEKING A CHANGE OF VENUE ADVISED BANKS
THAT HE SHOULD PLEAD GUILTY TO CAPITAL MURDER BECAUSE A TYPICAL
RANDALL COUNTY,TEXAS JURY WOULD CONSIST OF ALL WHITE CITIZENS
WHO WOULD CONVICT HIM AND SENTENCE BANKS TO DEATH BECAUSE BANKS
IS AFRICAN AMERICAN AND THE COMPLAINANTS WERE BOTH WHITE?

ii

LIST OF PARTIES

DO All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

9

INDEX TO APPENDICES
APPENDIX A

Opinion U.S. Court of Appeals,Fifth Circuit

APPENDIX B

Opinion U.S. District Court

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

iv

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Martinez v. Ryan, 566 U.S. 1 (2012)

7
ii,4,6

Pickens v. State,Trial Court No.3274,35th Judicial,
District, Mills County,TX(Nov. 7,2018)
Strauder v. West Virginia, 10 Otto 303 (1880)
Strickland v. Washington,466 U.S. 668 (1984)
Thomas v. Lockhart, 738 F.2d 304 (8th Cir.1984)
Trevino v. Thaler,569 U.S. 413 (2013)
Vasquez v. Hillery, 474 U.S. 254 (1986)

7
6
8
7,8
ii,4,6
7

Gomez v. U.S. 490 U.S. 858 (1989)

STATUTES AND RULES

OTHER

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ^ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
be] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was January 29 ? 2020
[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. :__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

"In all criminal prosecutions, the accused shall enjoy the right*••
to have the Assistance of Counsel for his defense."
U.S. Const, amend VI.

The Fourteenth Amendment forbids a state to "deny any person within
its jurisdiction the equal protection of the laws."
U.S. Const, amend. XIV.

3

STATEMENT OF THE CASE
After exhausting his State habeas remedies, Banks filed his feder­
al petition for habeas corpus. In his federal petition Banks raised,
inter alia, that his trial counsel coerced him into entering a guilty
plea by advising him that if Banks exercised his right to a jury trial
he would be tried by an all white jury who hated black men and would
convict Banks and sentence him to death based on Banks being African
American and the complainants being white. Banks had not raised this
claim in his State writ application.
Neither the State nor the federal judge denied that Banks had been
so advised. Moreover, trial counsel admitted in a post conviction
affidavit that he had in fact stated that to Banks in order to have
Banks plead guilty to the capital murder charge.
However, in its Answer to Banks federal application, the State argued
that Banks' IAC claim as to this issue was procedurally barred because
he had failed to raise the claim in his State application.
Neither the State nor the federal court found that the claim was not
a substantial claim.
Banks argued that the claim was a substantial claim and therefore
not procedurally barred and could be addressed on the merits pursuant
the Supreme Court's decisions in Trevino v. Thaler,569 U.S. 413
(2013) and Martinez v. Ryan,566 U.S. 1 (2012).
The federal district court denied relief, having never addressed the
merits of the claim and entirely ignoring the two Supreme Court's
decisions.
Due to issues related to prison transfers involving Banks and the
prisoner who had been assisting Banks due to Banks' intellectual
disabilities, Banks was unable to appeal the decision of the federal
court to the Fifth Circuit U.S. Court of Appeals
However, within a years' time, Banks ended up assigned to the unit
with the prisoner who had been helping him, and Banks filed a motion
for relief from final judgment pursuant to Rule 60(b)(l)(l) based
on excusable neglect. Banks also asserted Rule 60(b)(6) applied
based on a miscarriage of justice exception.

4

REASONS FOR GRANTING THE PETITION
GROUND ONE

WAS BANKS CLAIM OF INEFFECTIVE ASSISTANCE OF COUNSEL,RAISED FOR THE
FIRST TIME DURING HIS FEDERAL HABEAS PETITION, A SUBSTANTIAL CLAIM
WITHIN THE MEANING OF THE SUPREME COURT'S DECISIONS IN TREVINO AND
MARTINEZ.
Review should be granted, because this Court's decisions in Trevino v.
Thaler,569 U.S. 413 (2013) and Martinez v. Ryan,566 U.S. 1 (2012) cre­
ated an exception to the procedural bar imposed by the district court.
The State never argued, and the district court never found, that the
ineffective assistance of counsel claim at issue was not a substantial
claim. The district court,despite Banks reliance on this Court's two
decisions, arbitrarily imposed the procedural bar without even conducting
an analysis of the two decisions or even making mention or acknowledging
the cases.
Hence, the district court's and the Fifth Circuits decisions run con­
trary to this Court's decisions in Trevino and Martinez supra.
Banks respectfully request that this Court grant his petition for writ
of certiorari.
C

GROUND TWO
WAS BANKS DENIED EFFECTIVE ASSISTANCE OF COUNSEL WHEN HIS TRIAL COUNSEL,
WITHOUT FIRST SEEKING A CHANGE OF VENUE, ADVISED BANKS THAT HE SHOULD
PLEAD GUILTY TO CAPITAL MURDER BECAUSE A TYPICAL RANDALL COUNTY,TEXAS
JURY WOULD CONSIST OF ALL WHITE CITIZENS WHO WOULD CONVICT HIM AND SEN­
TENCE HIM TO DEATH BECAUSE BANKS IS AFRICAN AMERICAN AND THE COMPLAIN^
ANTS WERE BOTH WHITE?
Review should be granted because the lower courts' decisions regarding
this claim runs contrary to a plethora of decisions rendered by this
court for over 100 years.
In Strauder v. West Virginia, 10 Otto 303,308 (1880), the Court made
clear that racial prejudices in jury selection serves as "a stimulant
to [] race prejudice which is an impediment to securing [African
Americans] that equal justice which the law aims to secure to all others."
6

"Jury selection is the primary means by which a court may enforce a
defendant's right to be tried by a jury free from ethnic,racial, or
political pressure." Gomez v. U. S . , 490 U.S. 858,873 (1989).
"When constitutional error calls into question the objectivity of those
charged with bringing a defendant to judgment, a reviewing court can
neither indulge a presumption of regularity nor evaluate the resulting
harm. Vasquez v. Hillery,474 U.S. 254,263 (1986).
Banks case is not an isolated case in terms of defendants' attor­
neys using threats of racist juries to get them to plead guilty.
In Thomas v. Lockhart,738 F.2d 304,309 (8th Cir. 1984) the Eighth
Circuit reversed based on ineffective assistance of counsel when trial
counsel told the African American defendant that he should plead guilty
because the jury would be made up of all white citizens who wouldn't
believe his testimony because he was black.
In another case, the defendant was made to choose between a jury or
judge trial. His attorney argued for a change of venue, stating, in
relevant part:
"[Tjhere is on the grounds of this courthouse,statutes honoring the
Confederacy, and the Confederate flag is flown on a daily basis here."
Pickens v. The State of Texas,Trial Court Cause No. 3274, District Court
Mills County Texas,35th Judicial District, (November,7,2018)(Volume
3 of Reporter's Record, at P.15). Pickens ended up waiving his right to
a trial by jury,was tried by the judge, and sentenced to the maximum.
Pickens is African American. His codefendant was a white female. Less
than 1% of Mills County is African American.
There is a phenomenom of minority defendants being made to choose be­
tween trial by inherently racial juries or pleading guilty. This advice
is coming from defendants' trial counsels.
In Banks' case, his trial counsel never even attempted to get a change
of venue before advising Banks to plead guilty.
Banks is respectfully asking this Court to decide if he received the
rights guaranteed by the Constitution to effective assistance of counsel
and equal protection when he was essentially coerced into pleading
guilty based on the pernicious choices he was presented with.

7

The Petition should also be granted because the decisions of the
lower courts, and particularly the Fifth Circuit, creates a split
amongst the federal circuit courts.
In Thomas y. Lockhart, 738 F.2d 304 (8th Cir. 1984), the Court
reversed based on virtually identical advice give to an African
American defendant to plead guilty because the jury wouldn't be­
lieve his testimony because he was black. The Eighth Circuit de­
cided that such advice rendered the guilty plea involuntary.
Banks respectfully request that this Court settle the split amongst
the circuits and decide if such advice from counsel satisfies the
requirements of Strickland v. Washington, 466 U.S. 668 (1984).
The Petition should also be granted in order for this Court to
exercise its supervisory authority in that the lower federal Courts
disregarded this' Court-' s decisions in Martinez and Trevino by im­
posing a procedural bar without any consideration of those rulings.

8

-

The district court denied relief.
Banks filed a timely appeal to the U.S. Court of Appeals for the Fifth
circuit appealing the denial of his motion for relief from final judgment.
The Fifth Circuit Court found that Banks "motion is a true Rule 60(b)
motion." (Appendix A, at P.2). However the Fifth Circuit decided that
Banks was required to obtain a certificate of appealability in order to
appeal the district court's decision. The Fifth Circuit denied a COA,
stating that Banks had failed to show that "jurists of reason would find
it debatable whether the petition states a valid claim of the denial of
a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling." (id.)
Banks appeal to this Court is timely filed.

5

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

9

